Audit Report




OIG-07-038
SAFETY AND SOUNDNESS: OCC Could Further Strengthen Its
Ability to Assess Risks to Community Banks Following
Emergencies
May 25, 2007




Office of
Inspector General
Department of the Treasury
Contents


Audit Report................................................................................................. 3

Results in Brief ................................................................................................ 3

Background ................................................................................................... 5

Findings and Recommendations ......................................................................... 8

        Improvements Could be Made to OCC’s Guidance to Assess the Financial
        Condition of At Risk Community Banks Following Emergencies .................... 9
        Recommendations................................................................................... 11

        Improvements Could be Made to OCC’s Operational Assessment Process for
        Community Banks Following Emergencies.................................................. 12
        Recommendations................................................................................... 15



Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................             17
    Appendix     2:      Management Response .........................................................         18
    Appendix     3:      Major Contributors to This Report ...........................................         21
    Appendix     4:      Report Distribution................................................................   22


Abbreviations

    CAMELS               Capital, Assets, Management, Earnings, Liquidity, Sensitivity to risk
    COOP plan            Continuity of Operations plan
    FDIC                 Federal Deposit Insurance Corporation
    FFIEC                Federal Financial Institutions Examination Council
    FRB                  Board of Governors of the Federal Reserve System
    NCUA                 National Credit Union Administration
    OIG                  Office of Inspector General
    OCC                  Office of the Comptroller of the Currency
    OTS                  Office of Thrift Supervision
    Treasury             Department of the Treasury



                         OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks        Page 1
                         Following Emergencies (OIG-07-038)
         This page intentionally left blank.




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 2
Following Emergencies (OIG-07-038)
                                                                              Audit
OIG
The Department of the Treasury
                                                                              Report
Office of Inspector General




                  May 25, 2007

                  John C. Dugan
                  Comptroller
                  Office of the Comptroller of the Currency

                  During the 2005 hurricane season, Hurricanes Katrina and Rita
                  struck states along the Gulf of Mexico, causing major
                  destruction and disruption in portions of Alabama, Louisiana,
                  Mississippi, and Texas. Following these hurricanes, we
                  conducted an audit to determine (1) how prepared the Office of
                  the Comptroller of the Currency (OCC) was to address the
                  needs of national banks and their customers during and
                  immediately following the hurricanes and (2) OCC’s plans and
                  abilities to assess and manage increased risks to national banks
                  following the hurricanes. We focused our audit on OCC’s
                  supervision of community banks because, with the exception of
                  one large bank and one midsize bank, all affected banks
                  determined to be at risk by OCC were community banks.


Results in Brief
                  OCC determined that Hurricanes Katrina and Rita had posed
                  risks to community banks in the Gulf Coast Region. Short term,
                  the risks were primarily to the banks’ operations, while long
                  term risks were primarily to the banks’ financial condition. OCC
                  evaluated these risks by obtaining assessments from bank
                  management and subsequently performing analyses and
                  examinations.

                  OCC obtained initial financial information on at risk community
                  banks within 45 days after Hurricane Katrina and 19 days after
                  Hurricane Rita. We found that OCC could improve its



                  OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 3
                  Following Emergencies (OIG-07-038)
                      procedures to assess the financial condition of at risk1
                      community banks following emergencies as:

                      •   OCC Emergency Event Procedures did not specifically
                          address documenting all important elements of financial
                          condition from at risk community banks in a consistent
                          manner.
                      •   OCC did not specify timeframes for analyzing the effects of
                          the hurricanes on the at risk community banks’ financial
                          condition.

                      We also found areas where OCC could improve its operational
                      risk assessment of community banks following emergencies as:

                      •   OCC could not provide evidence of contact with all
                          community banks in areas affected by Hurricane Rita and
                          weaknesses existed in the identification of banks in these
                          areas.
                      •   OCC had difficulty establishing communication with
                          community banks following Hurricane Katrina.

                      We are recommending that OCC: (1) modify its Emergency
                      Event Procedures to require documentation and summarization
                      of all important elements of financial condition for at risk
                      community banks in a consistent manner; (2) modify its
                      Emergency Event Procedures to require that following such an
                      event, OCC determine timeframes for analyzing the effects on
                      at risk community banks financial condition, based on the
                      gravity of the situation; (3) document its contact made with
                      individual banks following an emergency event and develop a
                      methodology to accurately identify banks to be monitored in
                      emergency events; and (4) maintain alternative contact
                      information for bank personnel.

                      While OCC agreed to address our recommendations, it
                      expressed a concern that the report may give the impression
                      that OCC did not take appropriate responsive action to
                      Hurricanes Katrina and Rita, as opposed to not fully document
                      its action. Our report did focus more on improvements in
1
 OCC categorized 12 community banks at risk based on their lending exposure in areas most affected
by the hurricanes.

                      OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 4
                      Following Emergencies (OIG-07-038)
                       documentation rather than actions taken by OCC, as the
                       documentation we reviewed did not allow for a clear
                       determination of when elements of the condition of at risk
                       banks were established. OCC also stated that at no time was it
                       unaware of either storm’s effect on its institutions, their
                       markets, or their communities. However, OCC did not fully
                       demonstrate its awareness of each storm’s effect.

                       OCC has agreed to modify its Emergency Event Procedures to
                       incorporate its risk based approach to supervision. To the extent
                       that the modification to the procedures leads to documentation
                       and summarization of the financial condition of at risk banks
                       and addresses the establishment of timeframes after disasters,
                       the corrective action will be responsive to recommendations (1)
                       and (2). OCC’s conveyance to its senior district management of
                       its belief that documentation of significant events could be
                       improved does not address the need to better identify banks
                       included in recommendation (3). OCC’s agreement to ensure
                       their systems include alternative contact information for bank
                       personnel is responsive to recommendation (4).


Background
                       Hurricane Katrina made landfall on the Gulf Coast on August
                       29, 2005, with Hurricane Rita following on September 24,
                       2005. These two hurricanes caused major destruction and
                       disruption in portions of Alabama, Louisiana, Mississippi, and
                       Texas.

                       OCC is the primary regulator of all national2 banks. Its mission is
                       to charter national banks, oversee a nationwide system of
                       banking institutions, and assure that national banks are safe and
                       sound, competitive and profitable, and capable of serving in the
                       best possible manner the banking needs of their customers.

                       To assure functions essential to accomplishing its mission could
                       be performed during and in the aftermath of an emergency,
                       OCC developed an Emergency Management Handbook

2
 In this report, the terms banks and national banks are used interchangeably, as all banks regulated by
OCC are national banks.

                       OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 5
                       Following Emergencies (OIG-07-038)
                        consisting of emergency management procedures and
                        Continuity of Operations (COOP) plans, including COOP plans
                        for OCC’s headquarters, district offices, field, satellite, and large
                        bank offices.3 OCC’s emergency procedures distinguish
                        between market events and emergency events. While both may
                        affect the safety and soundness of national banks, OCC defines
                        a market event as a disruption in the normal operation of any
                        domestic or global market that could result in meaningfully
                        elevated risk exposures to a national bank company, group of
                        companies, or the banking system as a whole, and an
                        emergency event as a disruption of lesser impact that OCC
                        needs to monitor for supervision or reporting purposes. OCC
                        considered Hurricanes Katrina and Rita to be emergency events
                        and not market events. OCC used their Emergency Event
                        Procedures during and immediately following the hurricanes, to
                        capture reports on operational assessments of national banks
                        operating in and close to areas affected by Hurricanes Katrina
                        and Rita.

                        OCC, other federal financial institution regulators, and the
                        Federal Financial Institutions Examination Council (FFIEC)4
                        issued information that addressed a variety of issues that arose
                        after the hurricanes. The topics covered included assistance to
                        affected customers, availability of additional supervisory
                        guidance on regulatory and reporting issues, availability of
                        Community Reinvestment Act consideration for bank activities
                        that revitalize or stabilize designated disaster areas,5 and
                        examination guidance for regulatory personnel for financial
                        institutions affected by Hurricane Katrina.6

3
  OCC headquarters is in Washington, D.C. and four district offices: the Central District office in
Chicago, Il.; the Southern District Office in Dallas, Tex.; the Western District office in Denver, Co.; and
the Northeastern District office in New York, N.Y. The OCC also has 52 field offices and 25 satellite
locations in cities throughout the U.S., and resident examiner teams in the 23 largest banking
companies.
4
  FFIEC is an interagency body empowered to prescribe uniform principles, standards, and report forms
for the federal examination of financial institutions by the Board of Governors of the Federal Reserve
System (FRB), the Federal Deposit Insurance Corporation (FDIC), the National Credit Union
Administration (NCUA), the OCC, and the Office of Thrift Supervision (OTS).
5
  Joint Release of the FRB, FDIC, and OCC, “Banking Agencies Issue Final Community Reinvestment
Guidance” (Mar. 2, 2006).
6
  OCC Bulletin 2006-5, federal financial institutions regulatory agencies and the state supervisory
authorities in Alabama, Louisiana, and Mississippi jointly issued, “Hurricane Katrina: Guidance to
Examiners” (Feb. 3, 2006).

                        OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 6
                        Following Emergencies (OIG-07-038)
                       FFIEC-issued guidance specifically intended to help financial
                       institutions recover from the hurricanes addressed such topics
                       as granting extensions to financial institutions for filing third-
                       quarter Consolidated Reports of Condition and Income (Call
                       Reports);7 permitting financial institutions to use estimates to
                       determine their loan loss reserves for their third quarter Call
                       Reports until a determination on the collectibility of loans was
                       confirmed; allowing financial institutions, for liquidity purposes,
                       to immediately sell securities designated as held to maturity,8
                       and exempting institutions from real estate appraisal
                       requirements for real estate transactions in designated counties
                       affected by the hurricanes.9

                       OCC coordinated with banks’ technology service providers,
                       worked with the United States Postal Service on mail service
                       issues, and posted information, including frequently asked
                       questions, on its Web site to help banks and consumers
                       affected by the hurricanes.

                       OCC also conducted a lessons learned review of the hurricanes
                       to address future emergencies. In particular, the review
                       identified the importance of alternate means of communication,
                       such as satellite telephones, resulting in OCC’s purchase of
                       satellite telephones for all of its field offices. OCC is considering
                       encouraging banks to do the same.

                       OCC categorizes national banks as large, midsize, or
                       community. OCC’s community banks are generally defined as
                       banks with less than $1 billion in assets. OCC conducted
                       operational assessments on 48 community banks following the
                       hurricanes between August 30, 2005, and October 12, 2005.
                       The operational assessments covered major areas such as bank

7
  National banks are required to file quarterly Call Reports, which contain detailed information about the
bank’s operations and financial condition. Reports are due on the 30th day after the end of each
calendar quarter. However, banks with a foreign office(s) have 40 days after the end of each calendar
quarter to file.
8
  “FFIEC Agencies Announce Additional Guidance for Financial Institutions in Response to Hurricanes
Katrina and Rita” (FFIEC press release, Oct. 6, 2005).
9
  In OCC Bulletin 2005-36, FRB, FDIC, OTS, NCUA, and OCC jointly issued, “Real Estate Appraisal
Exemptions in Major Disaster Areas” (Oct. 14, 2005).


                       OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 7
                       Following Emergencies (OIG-07-038)
                       closings, bank staffing issues, cash shipments to banks, and
                       transaction processing issues.

                       On October 13, 2005, OCC categorized 12 community banks
                       as at risk based on their lending exposure in areas most
                       affected by the hurricanes. Of the 12 banks, 8 were considered
                       affected by Hurricane Katrina and 4 by Hurricane Rita. OCC
                       contacted the at risk banks to collect information on their
                       financial condition and subsequently conducted analyses that
                       covered the financial effects of the hurricanes on the banks’
                       CAMELS ratings.10 Assets and deposits of the at risk
                       community banks totaled $2.6 billion and $2.1 billion,
                       respectively. As of December 31, 2005, these 12 at risk
                       community banks had increased their loan loss reserves in the
                       preceding 6 month period by a combined total of $5.8 million,
                       representing 2.4 percent of the combined June 30, 2005,
                       capital level for the banks.11 The increase to loan loss reserves
                       compared to capital was therefore not significant.


Findings and Recommendations
                       Emergencies pose serious risks to the safety and soundness of
                       banks. Short term, the risks are primarily to the banks’
                       operations while long term, the risks are primarily to the banks’
                       financial condition. OCC’s supervisory responsibility to
                       determine the banks’ safety and soundness is therefore
                       important following emergencies.




10
   The Uniform Financial Institutions Rating System was adopted by the FFIEC on November 13, 1979.
The rating system, called CAMEL, was used to evaluate the safety and soundness of a savings
association or a bank. On January 1, 1997, the rating system referred to as CAMEL became CAMELS.
CAMELS is an acronym for the six component elements that are evaluated: capital, asset quality,
management, earnings, liquidity and sensitivity to market risk. Each of these elements is rated on a
scale of 1 to 5.
11
   A financial institution’s loan loss reserve is an estimate of the amount needed to offset possible
losses on loans. After the hurricanes, financial institution’s estimated the storm related losses to their
loan portfolios and increased loan loss reserves to cover the estimated losses.

                       OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 8
                       Following Emergencies (OIG-07-038)
                     Improvements Could be Made to OCC’s Guidance to
                     Assess the Financial Condition of At Risk Banks
                     Following Emergencies

                     We found that although OCC has specific procedures to follow
                     when market disruptions occur, it lacks equivalent procedures
                     for emergency events. OCC’s market disruption procedures
                     state that their objective is to ensure that within hours of a
                     market disruption event, OCC’s executive management and key
                     staff has an assessment of the event that includes an opinion
                     on the immediate and anticipated effects on the safety and
                     soundness of individual companies as well as the National
                     Banking System.12 OCC’s COOP plan for its Committee on Bank
                     Supervision states that OCC’s first critical function starting on
                     the second day after a market disruption event is to continue to
                     assess and report on the condition of the national banks. In
                     contrast, OCC’s Emergency Event Procedures do not contain
                     timeframes by which OCC should assess and report on the
                     condition of banks after emergency events, such as Hurricanes
                     Katrina and Rita. OCC also has crisis management procedures
                     that call for the creation of a crisis management team to be
                     activated during an emergency event.13 The objective of these
                     procedures is to ensure that appropriate OCC action is taken as
                     expeditiously as possible, although no timetable is specified
                     within the procedures.

                     OCC identified 12 community banks as at risk based on their
                     lending exposure in areas most affected by the hurricanes. Of
                     these 12 banks, 8 were affected by Hurricane Katrina and 4 by
                     Hurricane Rita. OCC initially obtained assessments from the
                     banks affected by Katrina within days after that hurricane.
                     While these assessments were primarily operational, they did
                     touch on the immediate liquidity needs of the banks. OCC
                     informed us that they tried to obtain financial information from
                     the banks in late September 2005 to enable them to make
                     financial assessments of the banks’ conditions. However, the
                     earliest documented evidence of financial information on asset

12
   OCC, Market Disruption Procedures and Checklist, “Emergency Management Handbook,” (updated
Sep. 2, 2003).
13
   OCC, Crisis Management Procedures, (issued Feb. 10, 2006).

                     OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 9
                     Following Emergencies (OIG-07-038)
                     quality and earnings from 11 of the 12 community banks was
                     October 13, 2005, 45 days after Katrina’s landfall and 19 days
                     after Rita’s landfall. This first summary information was
                     prompted by a request from the Comptroller of the Currency on
                     October 12, 2005, who was responding to an inquiry from the
                     White House. Specifically, the request asked for an OCC
                     determination of which banks might experience problems that
                     would significantly affect capital and for an assessment of the
                     financial impact. OCC provided the summary information to
                     OCC Headquarters on October 14, 2005, and subsequently
                     updated it on November 25, 2005. OCC stated in a November
                     27, 2005 internal communication that it would have a better
                     understanding of banks’ loss exposure in the 1st quarter of
                     2006. While not making formal risk assessments,14 OCC staff
                     informed us that they used the summaries as financial
                     assessments and, based on the information provided by the
                     banks, determined that the risk to the banks was not substantial
                     following the hurricanes. As a result, OCC decided it was not
                     necessary to further update the summaries. The continuation of
                     OCC’s supervisory process led to OCC completing quarterly
                     analysis reports or full scope examination reports on these 12
                     banks. On average, it took OCC 4 ½ months following the
                     hurricanes to complete these reports.

                     Unlike the standardized questionnaire OCC used to obtain
                     operational assessments following Hurricane Katrina, OCC used
                     narrative summaries to describe the financial condition of its
                     banks. In its October and November 2005 summaries, the type
                     of information covered was inconsistent. Some bank summaries
                     included capital information and others did not. For example, in
                     the October 13, 2005 summary, OCC’s narrative summary for
                     one bank included the following statement about capital,
                     “Demand deposit accounts were up from 32 million dollars
                     before to 53 million dollars after the storm and that has driven
                     capital down to 7.3%”. In contrast, its summary for another
                     bank was less specific about the impact of the storm to capital,
                     “No huge individual loan losses. Expect some losses to come

14
  To ensure effective supervision of community banks by risk, the OCC requires a common framework
to document decisions about risk. The Risk Assessment System (RAS) provides a concise method of
communicating and documenting judgments regarding the quantity of risk, the quality of risk
management, the level of supervisory concern and the direction of risk.

                     OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 10
                     Following Emergencies (OIG-07-038)
from deficiency balances after insurance payoffs. Expect a spike
in bankruptcies. Bank has given 400 extensions…gave 90 day
extensions across the board. Loan demand is high with $4.5
million new loans in 3rd quarter 2005 not storm related…deposit
growth…concerned about insurance companies fighting claims,
not paying anything, and fighting between flood and hazard and
bank and customer will be caught in the middle…”

By not using a structured or standardized approach to gathering
financial condition information following an emergency, OCC
might not obtain critical information about the banks’ financial
conditions for further analysis in a consistent manner.

Recommendations

We recommend that the Comptroller of the Currency do the
following:

1. Ensure that OCC modify its Emergency Event Procedures to
   require documentation and summarization of all important
   elements of financial condition for at risk banks in a
   consistent manner.

2. Ensure that OCC modify its Emergency Event Procedures to
   require that following such an event, OCC determine and
   establish appropriate timeframes based on the gravity of the
   situation, for analyzing the effects on at risk banks financial
   condition.

Management Response

In its response, provided in appendix 2, OCC noted that its
actions flowed from its risk-based approach to supervision. OCC
plans to respond to recommendations (1) and (2) by fully
reflecting this risk-based approach to supervision in its
Emergency Event Procedures, by July 31, 2007. OCC also
expressed a concern that the report may give the impression
that OCC did not take appropriate responsive action to
Hurricanes Katrina and Rita, as opposed to not fully document
its action.



OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 11
Following Emergencies (OIG-07-038)
                      OIG Comment

                      To the extent that the modification to the Emergency Event
                      Procedures leads to documentation and summarization of the
                      financial condition of at risk banks and addresses the
                      establishment of timeframes after disasters, the corrective
                      action will be responsive to recommendations (1) and (2).
                      OCC is correct that our report’s main focus is on improvements
                      to documentation rather than on actions taken by OCC, as the
                      documentation we reviewed did not allow for a clear
                      determination of when elements of the condition of at risk
                      banks were established.

                      Improvements Could be Made to OCC’s Operational
                      Assessment Process for Community Banks Following
                      Emergencies

                      OCC Southern District Office guidance states that the Field
                      Office Assistant Deputy Comptroller is responsible for
                      identifying national banks that may have been affected by a
                      disaster, that the District Deputy Comptroller is responsible for
                      requesting regular status reports on the situation and the impact
                      on banks in a disaster area, and for communicating banks’
                      status to appropriate OCC management. The guidance further
                      states that the Field Office Assistant Deputy Comptroller is
                      responsible for coordinating with the field office staff and
                      portfolio managers to conduct an efficient and effective
                      assessment of the disaster’s impact on and damage to banks,
                      and contacting the District Deputy Comptroller when they can
                      not account for a bank.15 Additionally, guidance found in OCC
                      Emergency Event Procedures calls for reports of impact on
                      OCC-supervised banks.

                      Also, under the FFIEC “Supervisory Emergency Communication
                      Protocols,”16 each FFIEC member agency is to establish and
                      maintain the capability of rapidly communicating during

15
   OCC, “Southern District Disaster Guidance and Emergency Response”, Southern District Risk Tip,
(dated Aug. 31, 2004).
16
   FFIEC, “Supervisory Emergency Communication Protocols”, (updated Mar. 31, 2005).


                      OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 12
                      Following Emergencies (OIG-07-038)
emergencies with the institutions over which it has primary
supervisory authority.

If OCC is not able to identify a distinct universe of banks in or
close to disaster areas, OCC increases the risk that it will not be
able to communicate with the banks effectively during an
emergency and without documentation of communication with
banks in or close to an affected area, OCC management cannot
be assured that banks were contacted as appropriate.

We found the following areas where OCC could strengthen its
ability to assess risk following emergency events:

•   Documentation of contact with community banks in areas
    affected by an emergency event and identification of banks
    in these areas.
•   Communication with community banks following emergency
    events.

OCC could not provide evidence of contact with all community
banks in areas affected by Hurricane Rita and weaknesses
existed in the identification of banks in these areas

While Hurricane Rita’s impact was significantly less than
Hurricane Katrina’s impact, OCC stated in internal
communication that it had contacted all the community banks in
areas affected by Hurricane Rita. However, OCC was not able
to provide documented evidence of contact with all community
banks on lists prepared by OCC in anticipation of Hurricane Rita.
OCC’s division of Supervision provided us with 2 different lists
of banks that had been developed by 2 separate areas within
OCC in anticipation of Hurricane Rita. One list identified 52
community banks in or close to the forecasted path of Rita,
while the other identified 33. In OCC’s lessons learned review
for the hurricanes, OCC identified duplicative efforts in
developing lists of banks affected by Katrina and Rita as an area
to be improved.

Adjusting for additional banks subsequently identified by OCC
as well as for banks in areas where OCC judged that Rita had
had no impact and therefore did not contact, OCC agreed that it


OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 13
Following Emergencies (OIG-07-038)
did not have documented evidence of contact with 5 banks
using the first list or 3 banks using the second list. We also
found that 4 banks should not have been on the first list as they
were either no longer regulated by OCC as a result of liquidation
or merger or had merged with other OCC-regulated banks on
the list, with 1 of these also incorrectly identified on the second
list. FDIC requested a list of banks that OCC had contacted for
Hurricane Rita. An official from OCC’s Southern District office
responded that he did not have an accurate list of all the banks
contacted by the field offices.

OCC Had Difficulty Establishing Communication with
Community Banks Following Hurricane Katrina

OCC had difficulty establishing communication with community
banks following Hurricane Katrina as its communication efforts
were hampered by power and telephone outages, also, OCC
often did not have alternate contact information for bank
personnel. In preparation for Hurricane Rita, OCC enhanced its
communication efforts with banks by taking steps such as
broadly disseminating the telephone number for the Southern
District office and personal telephone numbers for officials who
were out of the path of the hurricane.

OCC contacted 32 community banks, operating in or close to
areas affected by Katrina, which it believed at risk. OCC contact
information for banks consists primarily of bank office telephone
numbers and bank office e-mail addresses. An OCC New
Orleans field office official stated that OCC needed bank
contact numbers and e-mail addresses outside of the banks and
that communication attempts should be made by both OCC and
the banks.

OCC’s contact effort was a coordinated one, involving OCC
staff from several Southern District field offices. Based on the
dates of communication provided by OCC, initial contact was
made within 1 or 2 days following the hurricanes for the
majority of the banks. It took 8 days to contact 2 of those
banks. In some instances, before making direct contact, OCC
had obtained information on banks’ operational conditions



OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 14
Following Emergencies (OIG-07-038)
through secondary sources such as other bankers, a banks’ data
processing service provider, and local officials.

Recommendations

We recommend that the Comptroller of the Currency do the
following:

3. Ensure that OCC document its contact made with individual
   banks following an emergency event and develop a
   methodology to accurately identify banks to be monitored in
   emergency events.

4. Ensure that OCC maintains current alternative contact
   information for banks and alternative channels of
   communication for use by OCC personnel to contact banks
   during emergencies. OCC should also consider encouraging
   banks to contact OCC during emergencies and provide banks
   alternative OCC contact information to facilitate
   communications.

Management Response

In its response, OCC stated that while their bank supervision
procedures require documentation of significant events, it
believes that its documentation of significant events affecting
its banks could be improved. In response to recommendation
(3), OCC stated that it has conveyed this to its senior district
management. OCC plans to respond to recommendation (4) by
ensuring that its systems include alternative contact information
by August 31, 2007. Whenever possible, OCC plans to contact
its institutions prior to an emergency, ensure bankers also have
alternative contact information for OCC and encourage banks to
contact OCC if necessary. OCC also commented that at no time
was it unaware of either storm’s effect on its institutions, their
markets, or their communities.

OIG Comment

To the extent that OCC clearly conveys to senior district
management its belief that its documentation of significant


OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 15
Following Emergencies (OIG-07-038)
events needs improvement, the corrective action will be
responsive to the first part of recommendation 3. However,
OCC’s response did not address the second part of
recommendation 3 which is to develop a methodology to
accurately identify banks to be monitored in emergency events.
We believe such a methodology is important as OCC identified
duplicative efforts in developing lists of banks affected by
Katrina and Rita as an area to be improved.

OCC’s agreement to ensure its systems include alternative
contact information for bank personnel by August 31, 2007, is
responsive to recommendation 4.

We were unable to substantiate OCC’s assertion that at no time
was it unaware of either storm’s effect on its institutions, since
as noted this report, OCC agreed that it did not have
documented evidence of contact with several banks after
hurricane Rita and it took OCC 8 days to contact 2 banks after
Katrina.

                                 * * * * *

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss this report, you
may contact me at (202) 927-0382. Major contributors to this
report are listed in appendix 4.




Alain Dubois
Director, Banking Audits




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 16
Following Emergencies (OIG-07-038)
Appendix 1
Objectives, Scope, and Methodology




Our audit objectives were to (1) determine the preparedness for
and responsiveness of OCC with respect to addressing the
needs of banks and their customers during Hurricanes Katrina
and Rita and (2) determine OCC’s plans and abilities to assess
and manage increased risks to banks following the hurricanes.
We focused our audit on OCC’s supervision of community
banks because, with the exception of one large bank and one
midsize bank, all affected banks determined to be at risk by
OCC were community banks.

To accomplish these objectives, we performed the following
activities:

•   Conducted interviews with OCC headquarters personnel in
    Washington, DC, the OCC New Orleans Field Office, and
    OCC midsize and large bank examiners
•   Reviewed OCC documentation for information gathered from
    OCC personnel regarding banks related to the hurricanes
•   Reviewed OCC’s completed Reports of Examination and
    quarterly analyses for 12 at risk community banks
•   Reviewed headquarters, district office, and field office COOP
    plans in OCC’s Emergency Management Handbook

We performed our fieldwork from November 2005 through
January 2007. We performed our audit in accordance with
generally accepted government auditing standards.




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 17
Following Emergencies (OIG-07-038)
Appendix 2
Management Response




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 18
Following Emergencies (OIG-07-038)
Appendix 2
Management Response




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 19
Following Emergencies (OIG-07-038)
Appendix 2
Management Response




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 20
Following Emergencies (OIG-07-038)
Appendix 3
Major Contributors To This Report




Alain Dubois, Director, Banking Audits
Bobbie Gambrill, Auditor
Vicky Liu, Program Analyst
Esther Tepper, Communications Analyst
Maryann Costello, Referencer




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 21
Following Emergencies (OIG-07-038)
Appendix 4
Report Distribution




Department of the Treasury

Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Comptroller of the Currency

Comptroller of the Currency
Liaison Officer

Office of Management and Budget

OIG Budget Examiner




OCC Could Further Strengthen Its Ability to Assess Risks to Community Banks   Page 22
Following Emergencies (OIG-07-038)
